No.

IN THE

SUPREME COURT OF THE UNITED STATES

PAUL BYRD,
Petitioner,
v.
STATE OF FLORIDA,
Respondent.

On Petition for Writ of Certiorari
to the Florida First District Court of Appeal

CERTIFICATE OF SERVICE

I, Michael Ufferman, member of the Bar of this Court, hereby certify that on this
9th day of July, 2020, a copy of the Petition for Writ of Certiorari in the above-entitled
case was mailed first class, postage prepaid, to:
Office of the Attorney General
PL-01, The Capitol
Tallahassee, Florida 32399-1050

Page 1 of 2

I further certify that all parties required to be served have been served.

Respectfully submitted,
/s/ Michael Ufferman
MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

Page 2 of 2

